<html>
<title> - THE OUTLOOK FOR WILDLAND FIRE AND MANAGEMENT PROGRAMS FOR 2019</title>
<body><pre>[Senate Hearing 116-306]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-306

     THE OUTLOOK FOR WILDLAND FIRE AND MANAGEMENT PROGRAMS FOR 2019

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2019

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-802                       WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------     
      
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                Nick Matiella, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     5

                               WITNESSES

Legarza, Shawna, National Director, Fire and Aviation Management, 
  USDA Forest Service............................................     7
Rupert, Jeffery, Director, Office of Wildland Fire, U.S. 
  Department of the Interior.....................................    16
Maisch, John ``Chris,'' Alaska State Forester, on behalf of the 
  National Association of State Foresters........................    23
Crowfoot, Hon. Wade, Secretary, California Natural Resources 
  Agency.........................................................    31

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Marie:
    Map entitled ``Significant Wildland Fire Potential Outlook--
      Washington State Fire Season 2019''........................    51
CoreLogic:
    Letter for the Record........................................   108
Crowfoot, Hon. Wade:
    Opening Statement............................................    31
    Written Testimony............................................    33
    Responses to Questions for the Record........................   105
Legarza, Shawna:
    Opening Statement............................................     7
    Written Testimony............................................    10
    Responses to Questions for the Record........................    67
Maisch, John ``Chris'':
    Opening Statement............................................    23
    Written Testimony............................................    25
    Responses to Questions for the Record........................    91
Manchin III, Hon. Joe:
    Opening Statement............................................     5
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
    Chart entitled ``Significant Wildland Fire Potential 
      Outlook--June 2019, July 2019, August 2019, September 
      2019''.....................................................     2
Rupert, Jeffery:
    Opening Statement............................................    16
    Written Testimony............................................    18
    Responses to Questions for the Record........................    83

 
     THE OUTLOOK FOR WILDLAND FIRE AND MANAGEMENT PROGRAMS FOR 2019

                              ----------                              


                        THURSDAY, JUNE 13, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, the Committee will come to 
order.
    We are here today to discuss the outlook for the 2019 
wildfire season. As we know, it is underway. It is certainly 
underway in my state. I know it is underway in Washington State 
and California most certainly.
    Senator Manchin. We are good.
    The Chairman. Yes, West Virginia, you are okay right now, 
but if you look at that map, that red in the southwest is 
something to pay attention to as well.
    [Map shown.]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Last week, the National Interagency Fire 
Center released its monthly wildland fire potential outlook for 
June through September. And despite relief from the oppressive 
drought conditions this past winter, analysts predict elevated 
wildfire activity in California, Oregon, and Washington, among 
other areas in the country.
    Some observers believe the stage is set for fire activity 
similar to the indescribable damage and the staggering loss of 
life that we saw last year in Northern California. We watched 
in horror as the Camp Fire engulfed the town of Paradise 
killing 85 individuals, some of whom were trapped in vehicles 
on rural roads trying to escape the blaze.
    So we are back again. Over the past week, we have seen an 
uptick in wildfires nationally.
    The Oregon Lake Fires back in Alaska continue to burn in 
the Donnelly Training Area, this is a U.S. Army range. In 
addition to the hazards of fighting the fire, our folks there 
are very carefully monitoring and spot-treating the fire as it 
moves across DoD land that contains unexploded ordnance--yet 
another threat that is out there. I understand that the vast 
majority of our fires are lightning strikes, and they predict a 
lot more lightning in this next week.
    This weekend in Arizona, smoke billowing from the Mountain 
Fire at the outskirts of Phoenix suburbs prompted the closure 
of a popular weekend campground and marinas in the Tonto 
National Forest. So Arizona is seeing it, as Senator McSally 
knows.
    A fast-moving brush fire in L.A. County triggered a 
panicked evacuation of hundreds of families from a crowded Six 
Flags amusement park. Some patrons reported that they were 
actually on the rollercoaster rides and ash began burning their 
eyes.
    North of Sacramento, more than 500 firefighters have been 
working in triple digit heat to tame the Sand Fire. On 
Saturday, 22,000 people were left without power when 
transmission lines outside the burn area were intentionally de-
energized as a precaution. But, you know, this is the new 
normal out there. If we want to try to deal with some of this 
fire threat, what we are going to do is turn off the power.
    We have seen time and again how something simple like a 
small spark on a breezy day can bring about devastating 
infernos. The Mendocino Complex Fire, which was the largest 
fire in California's history, was started by a hammer hitting a 
metal stake near tall, dry grass. We have all seen the news 
accounts of that recently.
    Every summer we see our home states erupt in flames. More 
wildfires are occurring in the East and in the central states, 
while the fires in the West grow larger and certainly more 
severe.
    There are a number of reasons why our forests and our 
grasslands are increasingly susceptible to fire: a changing 
climate means dryer and warmer weather; much of our nation's 
forest landscapes are unhealthy and overstocked with excess 
fuels; and the proliferation of disease and insect outbreaks, 
certainly like we have seen in Alaska and elsewhere around the 
country, certainly Colorado, but these leave behind large 
swaths of hazard trees that are ready to ignite just like a 
matchstick out there.
    In Alaska, warmer winters have led to a population boom of 
spruce beetle across nearly one million acres in just a few 
years now. We have communities on the Kenai Peninsula and now 
up in the Mat-Su Valley that are just scrambling to remove the 
dead and the dying trees from the neighborhoods and along the 
highways.
    Year in and year out, these factors continue to compound 
creating the perfect recipe for longer, costlier, and more 
damaging fire season.
    In 2018, more than 8.8 million acres burned across the 
country, double the average acres-burned in the 1990s. Last 
year was also the most expensive wildfire season on record, on 
record. The Federal Government spent more than $3.1 billion in 
suppression costs.
    So this is not only a human catastrophe, but certainly a 
financial cost, and an increase that is beyond belief. Just a 
few years ago, back in 2015, we had more than five million 
acres that burned in Alaska alone, that was truly a 
catastrophic year for us.
    I suppose the good news for that, if you can see any good 
news in five million acres burned, is that very little in terms 
of property damage because of where these fires were located. 
But we certainly see that with these intense fires in the Lower 
48.
    Congress has started to respond by expanding the 
authorities that federal land managers can use for wildfire 
prevention. We have given the Forest Service greater latitude 
to partner with their states, local governments and tribes to 
reduce hazardous fuels on federal lands near forest communities 
and out in the larger landscape; we have streamlined the 
federal environmental review process to expedite projects aimed 
at restoring our forests to their natural, fire-adapted state; 
and we have initiated a $2 billion increase in how we budget 
for wildfire suppression--and that change will take effect 
later this year at the start of FY 2020. Without delay, we are 
counting on the Forest Service and the Interior Department to 
utilize its full suite of resources for fire prevention and 
active forest management. Here in Congress, we will continue to 
work on additional reforms to reduce the threat of wildfire.
    So today we have a good panel to discuss the outlook for 
the wildfire season.
    We have from the State of Alaska, Chris Maisch, who is our 
State Forester, but he is testifying on behalf of the National 
Association of State Foresters. He has been before the 
Committee before, and we welcome you back, Chris.
    Mr. Wade Crowfoot is the Secretary of the California 
Natural Resources Agency, and he is going to discuss the 
wildfire crisis that is facing the State of California.
    Representing the Department of the Interior is Jeff Rupert, 
the Director of the Office of Wildland Fire.
    And we have Shawna Legarza, who is the Director of Fire and 
Aviation Management for the U.S. Forest Service. Ms. Legarza is 
a longtime civil servant of the Forest Service with over 30 
years of wildland fire management experience. She was once a 
hotshot superintendent and began fighting forest fires working 
her way through college as a young woman. We all know, and we 
have had opportunity here in the Committee to discuss the issue 
of workplace safety for women in the Forest Service, 
particularly those working on fire crews. It has been a 
priority for this Committee. I will look forward to your unique 
perspective on this issue as well as we are discussing the 
issues relating to wildland fires.
    With that, I will turn to Senator Manchin for his comments 
and then we will turn to the panel.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman. I want to thank 
you for holding this hearing and all of you for appearing today 
to try to help us find the solutions that we all need.
    Before I get into my remarks, I would also like to take a 
moment to thank all of our firefighters and first responders 
who are on the job today and who basically risk their lives 
every time they go out to protect us. These men and women 
bravely serve our country, day in and day out. They work long, 
grueling hours. I think you all know that, and they do so in a 
dangerous job for not much in compensation to protect the 
livelihoods of people that they will never meet, and for that 
we are grateful to them.
    So, Madam Chairman, I think the wildfires that we have seen 
in the past few years and the aftermath that they leave shows 
why this is such an important topic for us to discuss, and I am 
eager to learn more from the witnesses today. As Ranking Member 
from an Eastern state, I have listened to my Western state 
colleagues and continue to learn more about the issues 
impacting those states and wildfire has been a repeated topic 
of discussion.
    Despite the slow start to this year's fire season, I 
understand wildfires are increasing in intensity, size and 
frequency. They are burning longer, and they are harder to 
control than they were just a few years ago.
    One of the major reasons for these worsening fires is the 
change that we have going on in climate. Just a couple of weeks 
ago, I joined Chairman Murkowski, Senator Cantwell, Senator 
Barrasso and Senator Whitehouse to see firsthand the effects 
that climate change is having on the Arctic and innovative 
solutions aimed at reducing carbon emissions and increasing 
natural resilience through technology. It was truly 
unbelievable to witness the rapid changes occurring in the 
Arctic, but as we know with the Committee's work on other 
issues, the changes are being felt right here at home, 
especially during fire season.
    I believe the time for sensationalism is over. In seeking 
climate solutions, it seems like so many buzz words get people 
fired up. Climate warming, climate change, why can't we just 
have climate solutions because we all know we have to do 
something. That will bring people together rather than drive 
them apart.
    Scientists have shown that the warmer and drier weather has 
been causing wildfires to burn hotter and faster and for longer 
periods. In fact, recent studies show the average fire season 
is now 78 days longer than it was in 1970. Experts are also 
saying that as global temperatures continue to rise, the 
wildfires that we all experience in the United States will 
continue to worsen.
    Research from Headwater Economics has shown that a global 
temperature increase of one degree Fahrenheit will result in 35 
percent more acres burning in wildfires and a doubling in our 
firefighting cost. Obviously the effects of climate change are 
only beginning and have been made worse by our decades-long 
history of suppressing all wildfires, even the good fires, and 
by the lack of timber harvesting in our forests which is 
something, I am sure, that we are going to talk about today.
    Now communities across the country are being confronted 
with increasingly dangerous blazes. Last year, over 18,000 
homes were lost to wildfires. That is one in every 7,000 houses 
in the United States. Think about that. 18,000.
    As we continue to have these important conversations about 
lowering carbon emissions and increasing resilience in 
mitigation, wildfires will need to be part of those 
conversations.
    I am going to say it again because I think it is worth 
repeating. I am seeking climate solutions that will bring 
people together rather than solutions that drive people apart. 
Fortunately, I believe that addressing wildfires is a 
bipartisan issue. Wildfires do not discriminate. They don't 
care whether you are Republican or Democrat. They don't care 
what household that is. If it is in their way, they are going 
to get burned. They have severely impacted communities of both 
red and blue states equally.
    Every one here supports giving our brave men and women the 
best tools available to do their jobs. I know that Senator 
Cantwell and Senator Gardner have both shown great leadership 
in getting language included in the Public Lands bill to ensure 
that our firefighters have access to state-of-the-art 
technologies.
    I also want to take this opportunity to thank Senator Wyden 
for his leadership on his Wildfire Funding bill that was 
enacted last year. That bill will make an additional $2 billion 
available, beginning next year, to the agencies for 
firefighting. I, along with many of the members of this 
Committee, was a co-sponsor of Senator Wyden's bill because of 
how important the bill is to my State of West Virginia.
    Each year when the Forest Service ran short of its 
firefighting funds, it would raid the accounts of the eastern 
national forests, like the Monongahela National Forest in West 
Virginia, in order to pay for firefighting; and we understood 
that.
    In addition to not being fair, the fire borrowing practice 
was terribly disruptive to the proper management of these 
forests, like the Monongahela, and it directly harmed the 
surrounding communities that depend on our national forests.
    So the fire borrowing legislation was a great start, but 
there is more work to be done. We need to be looking at new, 
innovative solutions because these are very complex problems 
without simple answers.
    I look forward to hearing from the witnesses about the 
approach that we are taking this year so that our country does 
not have to repeat the devastation that we experienced just 
last year.
    Thank you, Madam Chairman and thank you to our witnesses. I 
look forward to this hearing.
    The Chairman. Thank you, Senator Manchin. I appreciate you 
raising the issue surrounding our trip to the Arctic. I have 
been attending the Arctic Council Meetings for a dozen years or 
so. I have been on the Arctic Parliamentarians. We all had an 
opportunity to visit with the Arctic Parliamentarians when we 
were in Ottawa.
    For the first time on the list of priorities of the Arctic 
Council as well as the Arctic Parliamentarians and all of the 
Arctic nations, one of those issues that we need to deal with 
is the issue of wildfire, wildfires in the Arctic.
    We are not going to resolve that one today, but it does 
speak to what we are seeing in different parts of the world 
that we really have not been as concerned about because the 
winters are cold enough that they kill the bugs, the beetles 
that would destroy the trees. But as we are seeing increased 
drought, even in areas where you don't have big trees, you can 
still have fires. I think we recognize that.
    Senator Manchin. Can I say one thing?
    The Chairman. Senator?
    Senator Manchin. Let me just say one thing about what I 
took away from the trip that we had--which was the most amazing 
trip. I think we all have seen things that we had only read 
about before or studied about, but to see it firsthand, up 
close and personal, was really moving.
    The thing I walked away from the Parliament in Ottawa, 
where the Parliamentary Arctic nations were all represented. 
And in those countries, they have more than just two parties, 
or systems, like we do. And all the parties and all the 
discussions, not one Arctic nation . . . not one Arctic nation, 
except the United States of America, allows a discussion of 
climate, climate change, climate solutions, climate warming . . 
. to be a political divide. They all agree because their 
existence depends on something being done. And we all can agree 
that it needs to be done. It is just a matter of agreeing on 
what needs to be done and how we do it but something must 
happen.
    So thank you, Madam Chairman.
    The Chairman. Let's go to our panel.
    I have introduced each of you, I think, to an order that 
folks know the value that you bring to the discussion whether 
through the USDA Forest Service, Interior, state level as state 
foresters and to the individual states.
    Let's begin with Ms. Legarza. We welcome you to the 
Committee and look forward to your testimony. We would ask you 
to try to limit your comments to about five minutes. Your full 
statements will be included as part of the record.

   STATEMENT OF SHAWNA LEGARZA, NATIONAL DIRECTOR, FIRE AND 
            AVIATION MANAGEMENT, USDA FOREST SERVICE

    Ms. Legarza. Absolutely.
    Thank you, Madam Chairman and Ranking Member and members of 
the Committee for having me here today. I'm going to speak 
today a little bit about the 2019 remainder of the fire year 
lookout and talk a little bit about what we're doing for 
information technology in our agency and then look at some of 
the different fire program managements at the different levels 
of the national, regional and state.
    So, as you know already, this winter and spring we've seen 
a little bit wetter than normal conditions across the south 
central, central America and on the West Coast, but it's 
starting to dry out right now. Arizona, New Mexico, Idaho, 
Alaska, even Canada, we're sending firefighters to Canada. And 
we know that our predictive services is showing that it's going 
to start to increase, that we could have a very significant 
fire year again this year in California and the Pacific 
Northwest. All those grasses are going to be drying out from 
the heavy rains and snowpack, and with that will come large 
fires. So we must continue to be prepared.
    We know that in the past several years we've seen every 
year record breaking fires, every single year in addition to 
what we saw last year, the devastation.
    So, how do we continue to be prepared for this like a 
continuous state of emergency that we have across America, not 
in just the Forest Service but all the agencies, federal, state 
and local?
    And so, as you know, all the things that come into 
firefighting is the fire environment. The main things that 
affect the fire environment is your fuels, your weather and 
your topography.
    One of those things that we can control, everybody here in 
this room, is the fuels, the fuel loading that we have across 
America on the landscape. There's not a lot we can do on 
topography, and we've seen what we've seen with the weather 
with abnormal weather events that come in. So what can we do in 
this fire triangle of fuels, weather and topography?
    We know right now in the Forest Service, we have 80 million 
acres that are at moderate to high risk, 44 million homes 
adjacent to the wildland urban interface. So we must continue 
to use some of the different authorities that I'm very grateful 
are coming to our agencies to continue to work on the fuel, 
fuels leg of the triangle.
    When we work on the fuels leg of the triangle, we will 
eventually reduce exposure for our firefighters that are 
working in the wildland urban interface to get in there and 
attack the fires and for the public to be able to get out of 
that area. There's less fuel loading and the fire can get 
knocked down quicker.
    In addition, I think about 86 percent of the fires, 86 
percent of the fires in America are human-caused fires, 86. And 
that means 86 percent of the fires could be prevented. We do 
know we have more fires on the East Coast than we do on the 
West Coast; a large percent of your smaller fires are on the 
East Coast, big fires happen on the West Coast.
    So how do we continue to work together on these fire 
emergencies that we have? The different fire emergencies 
include mobilizations of management of command, of aviation, of 
vehicles, mechanized equipment of logistics and communication, 
all across the country. We should be very proud in America. We 
have one of the best systems for wildland fire response. In 
fact, we go to other countries too and hear about their stories 
of year-round fire in other countries and we help talk about 
the system that we have in America so we can shadow that.
    At the national level we work continuously with a shared 
stewardship, good neighbor authorities and continue to push and 
roll out the authorities that you've given us in the 2018 
Omnibus bill, the '14 Farm bill, '18 Farm bill and the recent, 
the Dingell Act.
    In about two weeks we're having our first ever Information 
Technology Day, week actually, a couple days in Boise, Idaho, 
because there's overwhelming response of the public and vendors 
that want to come help us have a real time common operating 
picture for firefighter accountability and safety across 
America.
    At the local level, down at your district offices, there's 
continuous pre-season fire meetings where we come together. We 
look at our different authorities. We look at our agreements. 
We review our fire management plans and land management plans 
that we have.
    We talk to the communities about if not, when, if, not if, 
but when a fire is going to come into that area and how we're 
going to deal with it in that community. So, we have pre-
preparedness plans.
    We're working on the new Omnibus bill for mapping, for 
looking at those communities at risk. A pilot study coming out 
soon in Washington that we hope to work for, for looking at 
those areas and planning preparedness on that.
    I think the last thing I would like to say is just is we 
need to continue to improve the state of the nation's forests 
and national grasslands. We've got to continue to work on the 
work environment in the Forest Service.
    We believe that the values of duty, respect and integrity 
is a must. No harassment, no discrimination at any level in the 
Forest Service. And we know that we're working on some 
initiatives in fire and aviation management and with the agency 
but we know we have to do more for the future to help change 
that situation.
    And that concludes my statement. I look forward to any 
questions. Thank you.
    [The prepared statement of Ms. Legarza follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Legarza. We look forward to 
the discussion.
    Mr. Rupert, welcome.

STATEMENT OF JEFFERY RUPERT, DIRECTOR, OFFICE OF WILDLAND FIRE, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Rupert. Chairman Murkowski, Ranking Member Manchin, and 
members of the Committee, thank you for the opportunity to 
appear this morning to discuss the 2019 wildfire outlook and 
the Department of the Interior's Wildland Fire Management 
Program.
    When I spoke to you last year at this time, I said that the 
year ahead would be a challenging one. 2018, in fact, proved to 
be much more than that. It has been a trend now for many years 
that the fire season is, in reality, a fire year with our 
nation facing larger, costlier, more damaging wildfires.
    We ended 2018 with the destruction of entire community in 
California. We lost 85 lives and billions of dollars in 
economic losses. It's hard to imagine a repeat of this 
experience, but this is the potential reality that we face 
again this year.
    So it's difficult for me to sit here before you this 
morning and say that a challenging year is ahead of us because 
the wildfires that we're now experiencing are consistently more 
destructive than they've ever been and, if we're lucky, this 
fire year will simply be a challenging one.
    So far in 2019, we're seeing fire activity across the 
Pacific Northwest, California and along the southern border. 
Increased potential is expected in these areas well into the 
summer. In July, increased potential is expected to develop in 
Washington, Idaho, Northwest Montana, along the Canadian border 
and it's expected to last through September. Most of Hawaii 
will also experience above normal wildfire potential through 
September. And the rest of the country will see normal large 
wildfire potential for most of the summer. And to be clear, 
this doesn't mean that there's no risk of wildfire in other 
areas. It just means that there's a normal risk of wildfire in 
the other areas.
    While we've yet to see the really large, costly wildfires 
that our Canadian neighbors are experiencing in Canada right 
now in Alberta, we can expect to see them soon.
    I can tell you that we're vigilant in our readiness. We'll 
be effective in our response, and we're prepared for 2019.
    The success of our wildland fire management efforts is 
largely dependent on the collaborative work with many partners. 
For example, Executive Order 13855 and Secretarial Order 3372 
on reducing wildfire risk, integrate wildland fire management 
with land management objectives across Interior to set clear 
direction for more collaborative landscape and community scale 
land investments that reduce real fire risk. Through more 
active management we can reduce the threat and negative impacts 
of large and costly wildfires. Our partnerships continue to 
grow. We're finding new opportunities to get work done more 
effectively.
    The Interior is working with the Department of Homeland 
Security to invest in wildfire mitigation projects along the 
southern border. These are joint leveraged efforts that help 
address resource goals as well as help border patrol meet their 
security objectives.
    And collectively, all of this work supports a vision where 
our landscapes are healthy and vigorous and wildfires help to 
restore rather than destroy those landscapes. We've made 
considerable progress in our efforts, but we also recognize 
that substantially more needs to be done.
    In 2019, we'll continue to grow our use of technology to 
support these efforts and protect wildfires. Over the next 
several years, we're equipping 700 engines with satellite 
tracking terminals. We also see new opportunities to improve 
operational efficiencies by expanding the use of unmanned 
aircraft systems (UASs) for aerial ignition on both prescribed 
fires and wildfires where it makes sense to do so. This has the 
potential to improve the safety and reduce costs by limiting 
the use of helicopters and other resources in potentially risky 
and challenging situations. UASs have become a critical tool 
for firefighters, for mapping, for monitoring, for detecting 
hot spots, planning escape routes, helping to quickly obtain 
critical information without putting lives at risk. This past 
year the Department has doubled the number of UAS flights that 
we made in 2017, over 1,500 flights on over 200 fires, and we 
expect that to continue to grow.
    As we look to 2019 and beyond, we'll continue to build new 
partnerships, remain committed to active management on our 
nation's public lands and continue to grow the use of 
technology.
    This concludes my statement. Thank you.
    [The prepared statement of Mr. Rupert follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Rupert.
    Mr. Maisch, welcome.

 STATEMENT OF JOHN ``CHRIS'' MAISCH, ALASKA STATE FORESTER, ON 
     BEHALF OF THE NATIONAL ASSOCIATION OF STATE FORESTERS

    Mr. Maisch. Ah, yes, thank you.
    Good morning, Chairman Murkowski and Ranking Member Manchin 
and members of the Committee.
    My name is Chris Maisch, State Forester and Director of the 
Alaska Department of Natural Resources, Division of Forestry 
and member of the National Association of State Foresters 
(NASF). I appreciate the opportunity to speak with you today.
    NASF represents the directors of the state forestry 
agencies in all 50 states, eight U.S. territories and the 
District of Columbia. State Forestry agencies contribute a 
significant portion of the overall wildland fire suppression 
effort nationally in terms of resources, personnel, capacity 
and funds. Collectively, states reported spending $1.9 billion 
on fire suppression, prevention and mitigation in 2018 with 
$1.4 billion spent on suppression alone.
    In 2018, there were 8,080 state personnel mobilized through 
the National Interagency Coordination Center. Of these state 
personnel, nearly 75 percent were mobilized to federal 
wildfires. State and local agencies were responsible for 
responding to 78 percent of the reported wildfires in all 
jurisdictions.
    NASF applauds Congress' hard work and dedication to achieve 
a bipartisan wildfire suppression funding solution to 
permanently end borrowing against non-suppression forest 
service accounts, including state and private forestry 
programs.
    The State Fire Assistance and the Volunteer Fire Assistance 
programs are the fundamental federal programs that states and 
fire departments use to increase capacity and response 
capabilities. They provide crucial financial and technical 
assistance to support fire management activities including 
preparedness, planning, training, hazardous fuel treatments and 
the purchase and maintenance of equipment.
    In FY 2018, the SFA program provided over $28 million in 
funding for hazardous fuel treatments benefiting over 1,000 
communities in the wildland urban interface. This funding led 
directly to the treatment of nearly 50,000 acres of hazardous 
fuels which leveraged partner funding to treat 185,000 acres. 
Combined, SFA and VFA trained over 119,000 firefighters in 2018 
and assisted over 15,000 communities with increased suppression 
capacity.
    Attacking fires when they are small is the key to reducing 
fatalities, injuries, loss of homes and cutting federal 
firefighting costs.
    There are two additional programs critical for supporting 
the capacity of state and local agencies; the Federal Excess 
Personal Property Program and the Firefighter Property Program. 
These two programs are critical to rural communities and for 
many small fire departments as federal excess equipment may be 
the only affordable equipment available to them. Continued 
federal investment is needed to assist communities at risk to 
prepare for and mitigate the hazards associated with wildland 
fire.
    A situation that needs improvement is coordination and 
planning between federal and state agencies with regards to 
cross boundary fire management. Wildfires that begin on federal 
lands can cross onto state and private lands. Forest Service 
incidents, a cost share program, is negotiated with the state 
at the time of the incident. It would be preferable to have in 
place an agreement on how fire cost be allocated preseason 
between jurisdictional agencies.
    In Alaska, the entire state has a fire plan that identifies 
fire protection levels, and if an initial attack will occur 
there's also recognition of the role that fire plays in the 
various ecosystems and jurisdictional agencies can allow fires 
to burn as managed fires. If the agency makes this decision, 
they are financially responsible for the entire cost of the 
incident, even if the fire leaves agency land. And that's a key 
point.
    Lastly, I'd like to bring to the Committee's attention the 
need to address a critical issue preventing the efficient and 
the adequate national mobilization of state firefighting 
resources due to a liability issue related to forest fire 
compacts. Today there are eight forest fire compacts in the 
United States and Canada representing almost all the U.S. 
states and Canadian provinces and territories. However, only 
four of these forest fire compacts contain language providing 
for liability coverage for resources sent from one compact to 
another. This fact hinders the movement of critically needed 
resources between compacts when states are dealing with 
responses to wildfires.
    NASF and the Alliance for Forest Fire Compacts are urging 
Congress to enact a new national legislation related to this 
liability issue for resource changes between compacts. Enacting 
legislation would provide the states the option to accept the 
federal language without requiring them to change local/state 
statutes. The provinces would use their provincial process to 
accept the terms as well. This legislation would not affect 
existing state legislation related to liability but provide an 
option for states that need this additional protection when 
sharing resources between compacts.
    Thanks for your attention, and I look forward to answering 
your questions.
    [The prepared statement of Mr. Maisch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Chris.
    Mr. Crowfoot, welcome.

STATEMENT OF HON. WADE CROWFOOT, SECRETARY, CALIFORNIA NATURAL 
                        RESOURCES AGENCY

    Mr. Crowfoot. Thank you very much for the opportunity to 
testify here today.
    I came directly from the Western Governors Association 
meeting, and I can report that wildfire is a grave concern for 
governors across the West. And your priority that you're 
placing on this in the Senate and Congress is much, much 
appreciated.
    I lead an agency that has really pointed the spear for 
forest land management and wildfire protection and it includes 
CAL FIRE, the Department that includes the firefighters, the 
men and women that are actually fighting these fires.
    I'll start by sharing three important facts: 57 percent of 
the forests in California are owned by the Federal Government; 
25 million acres of our state, one quarter of our state's land 
mass, is classified under very high or extreme fire threat; and 
the wet winter that we experienced actually worsens fire 
conditions in most of the states.
    The Chairman put it right, which was 2018 was a devastating 
year in California for wildfires, and we've talked about the 
Camp Fire and Paradise. I'll mention that beyond the doubts and 
the destruction in Paradise, 50,000 people remain displaced as 
a result of that fire. So thank you very much for your 
leadership and support of disaster assistance, because that is 
changing lives in California.
    I'll also say that the Camp Fire created the worst air 
quality on the planet when it was burning. I have a four-year-
old and at the time last summer was living in the Bay Area. 
Most of the time she spent outdoors was spent in an N95 
certified mask with teddy bears. So literally for weeks on end, 
folks were limiting time outdoors as a result of dangerous air 
quality. That's the new normal that we face.
    All told, 2017 and 2018, three percent of the land mass of 
our state burned, over three million acres, and we expect it to 
get worse.
    Ranking Member Manchin was eloquent in talking about the 
impact of a changing climate. We face a longer fire season, 
average 86 days longer. Parts of our state are experiencing 
fire risk almost throughout the year. We've suppressed wildfire 
as our population has expanded resulting in overly dense 
forests that are actually unnatural. And then lastly, fully one 
quarter of our state, 11 million people, live in the wildland 
urban interface and face this wildfire risk.
    So, what are we doing about it? I'll just outline four 
priorities for Governor Newsom since he took office, and we can 
elaborate at question and answer if you want.
    One is emergency fuel break projects around the most 
vulnerable communities. Governor Newsom issued an Executive 
Order in his second day in office that led to an emergency 
proclamation, a proactive emergency proclamation that allowed 
CAL FIRE to create fuel breaks around the 200 most vulnerable 
communities in California in giving my office the ability to 
waive certain environmental permitting requirements to get 
those projects done quickly.
    Number two is community safety, helping communities protect 
themselves. So that's obviously just defensible space but 
increasingly focusing on home hardening. Homes that are built 
more fire resistant are demonstrating the ability to actually 
remain through these fires and helping communities with 
evacuation routes and safe havens when they can't evacuate.
    Third priority, improving our ability to fight the fires. 
So we put more funding into year-round fire engines to fight 
fires, our aviation assets are being built up, and we're 
focused on bringing more technology to the fire fight. Another 
Executive Order that Governor Newsom issued is really waiving 
contractor requirements to try to get the best technology out 
there into the field this summer.
    And then lastly, focused more long-term on landscape level 
forest health. We are completing a programmatic environmental 
review on 20 million acres in California that would essentially 
create an expedited permitting checklist to let vegetation 
management happen more quickly.
    So we want to build on really strong partnerships with the 
Federal Government, and I would identify three areas of 
requests that we have today.
    Number one is increased funding for vegetation management. 
At a time when our fire risk is getting worse, our budget in 
the region for the Forest Service is moving backward. The 
Forest Service treated 310,000 acres last year in California. 
It's had to reduce its target this coming year to 220,000 as a 
result of reduced funding.
    Second, we would like to help the Federal Government 
continue to improve the tools that it's bringing to the fire 
fight. Mr. Rupert mentioned the GPS on fire engines literally 
saving firefighters' lives. We have that in California. Federal 
agencies have not had that GPS on fire engines. Just an example 
of the tools. Also, NEPA reforms that enable projects to happen 
more efficiently while protecting environmental resources.
    And then lastly as I close, more coordination. Very excited 
that the U.S. Forest Service is pursuing state-by-state master 
agreements to really evolve the partnership and bring more 
innovation to the work that we do together.
    Thank you.
    [The prepared statement of Mr. Crowfoot follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Crowfoot.
    Thank you all for your contributions this morning.
    I know that members are moving around a lot this morning. 
We have a lot of different hearings going on. We actually have 
several votes beginning at 11:30.
    I am going to defer to you, Senator McSally, if you would 
like to lead off?
    Senator McSally. Well, thank you, Chairwoman Murkowski, I 
really appreciate you having this hearing today. And thanks for 
all of your testimony.
    Arizona knows the devastation of these forest, these 
wildfires, and we are coming up now on the sixth anniversary of 
the Yarnell Fire that took the lives of 19 firefighters in the 
Hotshots. I have been up at that site and that loss is still 
very real for each of those families. So we are grateful for 
all those who are out there and willing to go fight these fires 
and the complexity and the danger that they pose.
    On the front end, I support, you know, an ounce of 
prevention, right? If we better manage the forests, then we 
will have less risk to these heroes and to our communities. And 
in Arizona, the 4FRI initiative is one important element of 
that. We are waiting with held breath for the Phase 2 RFP to 
come out. That will help manage another 500,000 acres. I know 
it is not in your jurisdiction, but we had a discussion with 
Chief Christiansen in the hearing in April and it is supposed 
to be coming out in June. I don't know if you are aware of that 
still being on track or anything you can pass on related to it, 
because it is so critical for the prevention of these forest 
fires and the management of our forests.
    Ms. Legarza. Yeah, so it's supposed to be coming out any 
day. They're still working on the elements for the RFP is what 
I know and when we get more information, we'll get back with 
you on that.
    Senator McSally. All right, well great. We will keep 
looking for that.
    We also have been out and visited many of the sites in our 
forests and talk with a lot of the local stakeholders. One of 
the real challenges, as you know, it has been like 100 years of 
not managing our forests well that has gotten us to this place.
    But there is so much with the low-level biomass that is 
just not useable and so much of the red tape and the 
regulations that really just do not allow any private company 
to even think about the ability to come in and partner with us.
    Related to this, that some of those things are unique in 
Arizona and we have heard very specific things and we talked 
about it in the April hearing about having to stamp load, small 
diameter trees and the way trucks hauling low value biomass as 
if the timber were large, just so many different elements of 
this.
    So I am not waiting any longer. We are going to introduce 
legislation. I think some of this is within the jurisdiction of 
the Forest Service, but we are introducing legislation today, 
the Accelerating Forest Restoration Act which will direct the 
Forest Service to develop alternative harvesting procedures 
more suited for the low value restoration by-product that is 
coming off of Arizona's forests. We really hope that we can, 
again, continue to work with you.
    Ms. Legarza, I would love for you to pass on our bill and 
take a look at our bill and see what things you can do without 
literally taking the Act of Congress that are in the spirit of 
that bill. But any perspectives that you have related to the 
management of the forests and the challenges of partnerships 
with the private sector related to some of these, just, unique 
issues that we just need to remove the red tape to make it 
easier to have this happen to prevent these fires in the first 
place.
    Ms. Legarza. Absolutely.
    So we will continue to work with you through the 
legislation process. Thanks for initiating that.
    And you know, I think about fire knows no boundaries, and 
we should have no boundaries in the fuels treatments moving 
forward and continue to use all the authorities that we have 
for more enhanced active management. Reducing that fuel loading 
is going to help for firefighter safety when we do get fires 
into those areas and communities moving out.
    Senator McSally. Absolutely. Well, I am grateful for that.
    Thanks, Madam Chairwoman. I am going to yield back the rest 
of my time.
    The Chairman. Thank you, Senator McSally.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman, and thank all 
of you.
    I am going to start out with basically where my colleague 
from Arizona left off in speaking about what has been done.
    Let me give you some statistics and, if I am wrong on this, 
Ms. Legarza or any of you all, tell me so.
    From 1950 to 1990 the Forest Service cut 10 to 12 billion 
board feet of lumber annually, 1950 to 1990, and fewer than 
four million acres burned during that period of time. It seems 
like it is fairly well-related. For each of the last couple of 
years the Forest Service has only cut two to three billion 
board feet annually and ten million acres have burned. In 2018, 
the Forest Service sold only 3.2 billion board feet of timber. 
That is one thing that just glaringly stands out. If that was 
the success we had back then, why don't we do it now?
    But anyway, last year over 1.8 million acres burned in 
California, 410,000 burned in Alaska, only 6,000 in West 
Virginia. We have a pretty robust timbering industry that, kind 
of, keeps that under check. Can you explain to me if that is? 
Have you all made recommendations that there should be more 
control of these fires based on timbering? Or how else should 
we manage it--the same as, I think, the Senator from Arizona 
has suggested?
    Ms. Legarza. Absolutely and thank you, Senator, for the 
thoughts and questions there.
    So we are seeing larger fires across the landscape more 
year-round. We've seen fires start earlier in the calendar 
year, they start later in the calendar year, and they burn more 
acres. We know that since 1970.
    I believe that the authorities that you all have been 
giving us in this agency that we can continue to work across 
boundaries with shared stewardship, 20-year stewardship 
contracts and continue to move forward on those authorities. So 
not just timber removal but hazardous fuels removal and 
thinning and prescribed burning across the country. And it 
takes time. It's going to take us time to get there.
    We know we've just rolled out the new NEPA rule for 
implementation, right? Because we're working right now on a 
NEPA that's from 1992 for policies and procedures. So we almost 
need a next generation NEPA. We can follow that for more time-
sensitive and science-based results to move forward to get more 
work done on the ground.
    Senator Manchin. Let me ask you this then.
    If controlled burns, okay, the controlled burns.
    Ms. Legarza. Yeah.
    Senator Manchin. The Forest Service only conducts 
prescribed burns on two million acres per year. But then you 
have to pay to suppress wildfires on ten million acres. Why 
wouldn't you do more controlled burns?
    Ms. Legarza. Yeah, actually, last year we did just under 
two million prescribed burn acres, more than we've done in a 
long time. So we've really started to ramp that up. But 
challenges with controlled burning or prescribed burning is 
that there's a prescription we have to follow: the air 
temperature, the moisture, the fuels, where the smoke goes 
during the burn, after the burn and the backlog that we have 
for some of the CEs, that we're working on.
    Senator Manchin. And you are saying basically that 
restriction impedes doing the controlled burns, but when there 
is a forest fire, they have no control over where or when or 
what conditions the fire burns--I mean, it doesn't make any 
sense to me.
    Ms. Legarza. Yeah.
    Senator Manchin. You cannot explain this stuff to the 
average person in West Virginia.
    Ms. Legarza. Yeah, it's tough, you know, it's continuing to 
educate the public and the community on good smoke versus bad 
smoke and more about it.
    Senator Manchin. Well, let's get back into the finances 
then.
    In the 1990s we were spending $200 million per year. Now we 
are spending close to $4 billion per year.
    I understand that you operate fewer aircraft, own a similar 
number of fire engines, but employ 50 percent more firefighters 
than you did in the 1990s. However, the increase in the number 
of firefighters alone does not account for the 2,000 percent of 
cost increase. Explain to me where the money is going.
    Ms. Legarza. So, we have, this year we're going to have up 
to 32 air tankers into the system, both on our exclusive-use 
and call-when-needed contracts. Those air tankers cost more 
money than the air tankers did back in 1990. They're ``next 
generation'' air tankers. We all know that.
    Our firefighters have been remaining pretty steady at the 
10,000 firefighters that we have in the Forest Service.
    What we see different is the Planning Level 5, the activity 
across the landscape. When we get to that Planning Level 5, the 
highest level we have in America, sometimes there's 30,000 
firefighters, all these agencies working on fires across the 
country. Usually at that time the Forest Service has about 
7,000 of those folks that are out on the landscape. The rest 
remain home for initial attack.
    Senator Manchin. One very quick question and anybody can 
chime in.
    We know the prevention works. We know it has worked in the 
past, and we know that it could work. We see the results by not 
doing prevention work and not being proactive. What we are 
paying and the cost of human life, human assets and just 
general revenue . . . . We can hopefully make that move in a 
direction that would allow you to be proactive versus reactive.
    What can we do more to get the attention?
    Mr. Crowfoot, can we start with you and go right down the 
line?
    Mr. Crowfoot. Yeah, I think we have a tremendous 
opportunity. I think there has been an alignment around of all 
stakeholder groups from----
    Senator Manchin. Are the environmental communities also 
aligned? I think they do.
    Mr. Crowfoot. Yes.
    Senator Manchin. They understand we have to do----
    Mr. Crowfoot. Yes. I mean, you know, the different 
environmental groups, but there are a whole lot of 
environmental conservation organizations that understand that 
actually active management of the forests is essential because 
these big mega fires----
    Senator Manchin. I mean, timbering. So they are also okay 
with timbering? Are they okay with timbering or are they 
basically pushing back on timbering?
    Mr. Crowfoot. Yeah, they're okay with commercial enterprise 
within, well, let me not speak for them, but I think that there 
is an emerging consensus that public-private partnerships in 
forests are important.
    Senator Manchin. Okay.
    Mr. Crowfoot. And it's both commercial timber but let me 
just also emphasize the point that the Senator from Arizona 
made. We need to build new markets for the fuel that's not the 
big trees, not the traditional timber.
    Senator Manchin. We have the markets out East. You do not 
have the markets in many places in the West anymore. How do we 
redevelop those markets, and where do we focus?
    Mr. Crowfoot. Yeah.
    Senator Manchin. Because we can mulch. We use mulch. We 
take all that underbrush and flammable debris and make it into 
mulch out there. You don't have a demand for the mulch, right?
    Mr. Crowfoot. Well, I would argue it starts with these 20-
year stewardship agreements because if we're asking the private 
sector to come in and invest in capital into our forests, they 
need consistent demand over time to amortize their investment.
    So I actually applaud Congress and the U.S. Forest Service 
for working to expand these 20-year stewardship agreements that 
are, you know, essentially allow private partners to come in 
and manage the landscape in exchange for 20 years of guaranteed 
product.
    Senator Manchin. Thank you so much.
    The Chairman. I am going to continue to defer to 
colleagues. Let's go to Senator Lee.
    Senator Lee. Thank you, Madam Chair. Thanks to each of you 
for being here.
    Mr. Rupert, I would like to start with you.
    Our discussion of wildland fires often focuses on forest 
fires but rangeland fires also cause a whole lot of damage in 
the West each year and that includes a lot of damage in my 
State of Utah.
    The Bureau of Land Management, as you know, manages over 
1,400 separate grazing allotments in Utah covering 22 million 
acres of land in my state. So it is a vast expanse. It affects 
the lives and livelihoods of a lot of Utahans.
    What can you tell me about what BLM's plans might be to 
expand existing wildfire prevention strategies that are 
specific to rangelands and the forest floor?
    Mr. Rupert. Well, to your point--thank you for the 
question.
    To your point, you know, Interior, the, you know, nearly 
550 million acres that we administer, a relatively small 
portion of that is forest and we manage large, large areas of 
rangeland, brushland, grassland, other habitat type. So as you 
describe, the risk that we interact with is not just forest, 
and the Great Basin is a perfect example of that.
    You know, Interior and BLM, I think, from my perspective, 
have made great progress, even over the last half a decade plus 
in terms of focusing in and prioritizing work around fire risk 
in the Great Basin. There's still a lot of work to go there.
    As we're focused now on this engagement around active 
management, as we're focused on implementing things like the 
Executive Order, like the Secretarial Order to better integrate 
our land management activities with our fire management 
activities and really specifically what I think that looks like 
in terms of the opportunity we have is as we're planning land 
management activities, we now have put in place, you know, a 
very clear expectation that those land management planning 
efforts and then the activities, the management, that follow, 
will be informed with a sense of high priority to reducing fire 
risk as well.
    And so, that takes, in terms of actual management 
activities, it's everything from prescribed fire, as we've 
talked a little bit about earlier, to mechanical treatment, to 
where we can find public-private partnerships and we can 
leverage that kind of opportunity. Absolutely, that's a 
priority.
    Grazing is a piece of that as well. It really is an all-of-
the-above strategy. And the progress, I think, you'll see us 
making in the short-term as we better integrate that in a very 
deliberate way into how we're planning to do our land 
management activities, not, you know, essentially having fire 
management working here and land management working there, but 
actually fire and land management working in a very integrated 
way.
    Senator Lee. If you manage your grazing allotments 
carefully and you allow appropriate grazing, that can help 
suppress fires. It can help limit the fuel that a fire would 
need to burn.
    Mr. Rupert. Shawna shared during her opening remarks, the 
fire triangle. So fire intensity, fire behaviors, actually a 
fairly simple, it's a fairly, you know, sort of simple 
relationship. It's those three things. It's weather, 
topography, neither of those we really have, we can't control 
day-to-day. And fuel. Fuel we can affect. And that's, I think, 
that's a way to help explain why the focus on active 
management, why the focus on reducing vegetation.
    Senator Lee. There are some circumstances in which a fire, 
a single fire, might affect BLM land and Forest Service land 
simultaneously, correct?
    Mr. Rupert. Absolutely.
    Senator Lee. In that circumstance and you have from BLM, 
how do you handle that?
    Mr. Rupert. So well, in the case of, so, if there's a 
wildfire on the ground burning--there's a long, well-
established, interoperable framework in place. And it's not 
just Interior and the Forest Service. It's the federal family. 
It's the state family. It's community.
    When a wildfire is on the ground burning and that incident 
is being responded to, the incident management framework we 
have in place is actually pretty seamless. And to be honest 
with you, there aren't a lot of good examples or a lot of 
examples out there where we're at odds with priorities or 
strategies to interact with that incident. It's actually quite 
an impressive framework that we have in place with incident 
management. So we don't struggle with a lot of those issues, 
from my perspective.
    Senator Lee. Thank you, Mr. Rupert.
    Thank you, Madam Chair.
    Mr. Rupert. Thank you.
    The Chairman. Thank you, Senator.
    Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair.
    Ms. Legarza, I am heading home to rural Oregon this 
weekend, and I can tell you the forests of Oregon, and 
particularly in rural Oregon, are once again a tinderbox. What 
we have had is we have had a heavy winter with devastating 
storms, countless trees and debris down, a cool spring with a 
lot of new growth, and now it is nearing 100 degrees.
    This is not an abstract question. We have our forests in 
our rural communities at risk as of today. We badly need good, 
preventive management to make sure that this tinderbox does not 
completely devastate lives and put our communities at risk of 
breathing toxic wildfire smoke for weeks on end.
    The reason I wanted to lay this foundation is a day ago the 
Forest Service announced that it basically wants to roll back 
environmental laws. They say this is going to let them get more 
fuels and thinning projects done.
    I think, once again, this is going to be, if it were put in 
place, only a full-employment program for lawyers: lots more 
litigation, less work in the woods and more fire-risk for rural 
communities.
    So here is my question. My home state alone has over two 
million acres of thinning and prescribed fire treatment on 
forest lands that have gone through environmental reviews. They 
have gone through the reviews, and they are ready to go.
    Why wouldn't you all focus on that which we know? It is 
called shovel-ready projects. Why wouldn't you focus on that so 
we could do something important to protect Oregon communities 
now rather than chase one of these ideological ``pipe dreams'' 
of rolling back environmental laws while putting our 
communities at risk? That is my question. Why would you propose 
gutting the environmental laws when you are not even going 
after the backlog of approved hazardous fuels and thinning 
projects?
    Ms. Legarza. Yeah, thank you, Senator.
    So not only just Oregon, but other states have shovel-ready 
projects that we need to do for either prescribed burning which 
we need that window to burn or for mechanical treatments which 
we need contracts and things moving forward there. So it's 
almost like we need to do both. And the NEPA regulations that 
we have right now from 1992----
    Senator Wyden. Pardon me, ma'am. My time is short, and I 
want to be respectful.
    Ms. Legarza. That's fine.
    Senator Wyden. These are projects that have been through 
environmental review. There is not a NEPA question. They have 
been through the reviews. They are ready to go.
    What I am concerned about is somehow you all have made the 
decision that something else seems to take precedence, 
something which could, in my view, delay getting at that 
backlog, because we will just see more litigation.
    That has been the history of the Pacific Northwest. You try 
to roll back the environmental laws and, Senator Cantwell knows 
this, what you do is you basically run this lawyers' full-
employment program. You do not get real work accomplished, like 
a backlog that has already gone through environmental reviews, 
and our rural communities don't deserve that. They deserve that 
backlog getting reduced. It should be done first. Why won't you 
all do that?
    Ms. Legarza. Well, we are currently working on that.
    Last year, actually, in Region 6----
    Senator Wyden. Currently, excuse me, currently working on 
it. A day ago, you said what you are currently working on is 
trying to roll back the environmental rules, not going after 
the backlog. That was the statement a day ago.
    Why don't you get back to me because my time is almost out, 
telling me exactly how you are going to make sure you reduce 
the backlog and it does not get waylaid in a whole new array 
of, what I call, the litigation derby where everybody just 
shows up and sues each other and you don't get the work done.
    How soon can I have that? Can you get that to me within a 
week--how you are going to actually get that backlog, the two 
million acres that I am talking about, how you are going to get 
that backlog done and get that done first before we start 
chasing all these rollbacks in environmental laws?
    Ms. Legarza. Absolutely----
    Senator Wyden. Thank you, I appreciate it.
    Ms. Legarza. You're welcome.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair, and thank you to 
the witnesses for their testimony today.
    Ms. Legarza, given the wet winter that we have enjoyed in 
Colorado, in fact, if you are still interested in skiing, you 
can go ski this weekend again, if you would like, the cooler 
spring much of the West has experienced, it seems like it would 
be an ideal year to ramp up the fuels treatment projects.
    How is the Forest Service approaching fuels reduction 
projects right now and for the rest of the year? How does the 
recent passage of the supplemental spending package with money 
to pay the Forest Service back for fire borrowing affect that 
approach?
    Ms. Legarza. So----
    Senator Gardner. And if I could just add on, you know, what 
Senator Wyden was talking about, has the fire borrowing that 
gobbled up other accounts affected the ability to spend money 
like he is talking about on those fuel reduction projects?
    Ms. Legarza. Absolutely.
    So I'd love to go skiing in Colorado, anytime. I had a 
house there, used to work there.
    Senator Gardner. Thanks for being a taxpayer.
    Ms. Legarza. Right.
    So, I think, you know, what we're seeing, and we're very 
grateful for all the authorities that you all have given us, 
right, that we're using with the Forest Service and cross 
boundaries. We have--time is against us. As I talked about in 
my oral statement, we're in a continuous state of operational 
emergencies because we can't get ahead of where we need to be. 
I know that.
    In my visits to Colorado, they're out there working hard 
doing prescribed burning down in the San Juan National Forest, 
up on the pike and out on the frontcountry and being as 
prepared as they can with the authorities that were given us to 
move forward and be prepared for the fire year.
    Senator Gardner. Thank you.
    I would assume the fire borrowing issue was an effect and 
did hurt the ability to put some of those projects into place.
    Ms. Legarza. Absolutely, yeah.
    Senator Gardner. And as we get that fixed and the fix takes 
place, that problem will help solve itself, correct?
    Ms. Legarza. Yeah, absolutely.
    So thank you for getting the disaster aid passed and back 
to us, and we will get back in alignment for that money to be 
put back out to the field again.
    Senator Gardner. Thank you.
    I had the opportunity to visit a timber mill in Southern 
Colorado. A statement was made by the manager of the mill said 
that the forest is not here to sustain the timber industry, the 
timber industry is here to sustain the forest. His point being 
that if they can use their work to help reduce fuels in 
problematic areas, that it could save communities and save 
forests for future generations. I think that is important.
    It is estimated that 63 million acres of the almost 193 
million acres of National Forest System are at high or very 
high risk of wildfire. Last year the Forest Service performed 
hazardous fuels reductions on 3.4 million acres, I believe.
    Ms. Legarza. Yup.
    Senator Gardner. At that pace it would take about 20 
years----
    Ms. Legarza. Right.
    Senator Gardner. ----for us to treat those 63 million 
acres, and that is not taking into account if other acreage 
would be added into that 63 million acre number or not.
    So are we making forward progress? Are we, kind of, running 
in place? How are we doing?
    Ms. Legarza. I think we have a long ways to go. And I think 
that if we continue to work together with the authorities that 
you've given us, we've done 3.4 million acres for hazardous 
fuels is more than we've done in the past. And we are very 
aggressive at the local level to work on those shovel-ready 
projects for prescribed burning or mechanical that we can. But 
we've got to be in it together for the long haul, and we've got 
to continue to educate the American public on the challenges 
that we face.
    Senator Gardner. Thank you.
    I think it was brought up here that in California they are 
making several decisions on fire breaks, community fire breaks. 
We have seen in Colorado, I think it was the Buffalo Gap fire, 
that the community was actually saved from devastation by a 
fire break.
    Mr. Legarza. Yeah.
    Senator Gardner. People obviously moved to the mountains 
because they want to be in the forest. They want to enjoy that. 
And then you have a fire break plan that maybe the community 
agrees to, and there is a lawsuit that prevents that from going 
into effect.
    How do we balance this? How do we get this right? How do we 
make sure that we are protecting communities, preserving the 
reason that that person moved to the forest? I don't know who 
wants to take a crack at this. And how do we move forward on 
some of those smart management decisions?
    Mr. Crowfoot. Well, I'll say, Senator, first of all, fire 
breaks work. We talk about the fire in Paradise. The death toll 
would have been much higher had there not been vegetation 
management around the main evacuation corridor and another fuel 
break to protect the nearby community of Stirling City.
    In California what we've done is we prioritize those fuel 
breaks around the most vulnerable communities, given wildfire 
risk and the demographics of those communities . . . you know, 
people's age, car ownership, et cetera. And then we basically 
expedited those projects and waived certain contracting and 
environmental requirements.
    We don't do that lightly, and then we want that to be, sort 
of, surgical on the most urgent projects, but we can't go along 
business as usual, particularly around, you know, protecting 
these communities.
    Senator Gardner. Thank you.
    Mr. Rupert, you talked a little bit about the technology. 
It was an honor to sponsor the Wildfire Management Technology 
Advancement Act with Senator Cantwell and the work that had 
been done. As of last week, I think, before this Committee we 
had a group, a series of presentations from leaders in 
firefighting that were showing us new technologies that they 
led from nighttime firefighting to a Colorado company and 
Colorado firefighters that is helping to save lives and save 
our forests and communities.
    Can you talk a little bit about the technologies that you 
see are the most positive developments in terms of 
advancements?
    Mr. Rupert. Well, sure, thanks.
    Yeah, well, you know, one of the things I've talked about 
is, you know, there really is an abundance of technology out 
there, real-time situational awareness or closer to real-time 
situational awareness.
    We've talked a lot about tracking assets and individual 
firefighters and the safety considerations that go along with 
that. Planning, a whole suite of technology that can inform all 
of that. Implementing, you know, increased use of unmanned 
aircraft and how that reduces risk to people. You know, again, 
an abundance of opportunity there.
    You know, the challenge I think we have, or the work that 
we have in front of us, is really operationalizing that, and 
it's integrating that into, not just the Forest Service, not 
just Interior, not just the state, not just a local fire 
department, but the community. It's a big community.
    Shawna talked about last August over 30,000 wildland 
firefighters on incidents. Only a portion of those were federal 
firefighters, a portion of them were state firefighters, a 
portion of them were local firefighters, contractors. So it's a 
very diverse community.
    It's the operationalizing of those technologies that's 
really the work that we had to do, you know, developing the 
standards so that we can talk to each other when we put these 
things in place so that the imagery that we might take from 
unmanned aircraft that would clearly help us develop a strategy 
on an incident that everybody can see. That's the hard work we 
have in front of us.
    Senator Gardner. Thank you, and I am out of time. I 
apologize.
    Mr. Rupert. Thank you.
    Senator Gardner. Thank you, Madam Chair.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, and I thank you 
and Ranking Member Manchin for holding this important hearing 
and continuing the focus on these issues and for the witnesses 
being here today.
    I think you can hear from each of us, particularly from 
Western states, how urgent we think these issues are. We are 
all ready to help, and I think that we are ready to even come 
up with more tools and more resources.
    But a lot of our questions this morning are around what are 
you doing to implement the tools that we just gave you? The 
reason why members are doing that is because we have already 
had fires like the Grant County fire in Washington.
    I think this map depicting our state is alarming.
    [Significant Wildland Fire Potential Chart shown.]
    [GRAPHIC] [TIFF OMITTED] T7802.027
    
    Senator Cantwell. It is alarming because so much of the red 
is in Western Washington. We are used to the challenges in 
Central and Eastern Washington, but when you are talking about 
the usually wet side of our state, to see fire season 
predictions for the latest mapping to include so much of 
Western Washington, it is concerning.
    So we want every resource that we can get. We want this to 
be the same as any disaster that you would be preparing for 
whether it is a hurricane in the South or a storm off our East 
Coast. We view the fire season as a major storm impacting us.
    One of the first questions I have, Director Legarza, is we 
are seeing other people implementing these GPS systems as it 
relates to resources, like fire engines, and moving forward. I 
know that BLM has now agreed to doing this immediately. What 
can we do to get the Forest Service to immediately implement 
that same GPS system so we know the location of resources and 
assets and, hopefully, expand the technology to our 
firefighters as well so we can protect them this season?
    Ms. Legarza. Thank you, Senator.
    So what we're doing in the Forest Service, actually 
interagency at the National Interagency Fire Centers in just a 
couple weeks, we're having a three-day industry technology day 
to find out what is out there and then together we're going to 
figure out what do we need interagency, not just the Forest 
Service, but with the BLM and the states, and then put together 
a request for information and RFP proposal and find out how 
much all that costs so that we can all talk together and be 
integrated through time.
    Senator Cantwell. Well, Mr. Rupert's agency, the Department 
of the Interior, and several of us went through this discussion 
a year or so ago with the USDA Secretary. Not to put you in a 
particularly tough spot, but we did go down to USDA 
headquarters a year or two years ago now, with the Secretaries 
and said, the federal agencies will adopt the same technology--
quickly. These GPS trackers are what BLM already has 
implemented in their management of fire. They also have drones 
and real-time information, and the Secretaries signed an MOU to 
implement that very technology consistently across the 
Departments.
    Now we are here today. BLM has already taken the technology 
legislation that my colleague from Colorado and I got enacted. 
It basically said you have a year to implement it. However, 
with the fire season upon us, and the fact that BLM has 
implemented this right away, why can't we get the Forest 
Service to move faster or at least do the same?
    Ms. Legarza. Well, we're putting a strategy together to do 
that.
    With regards to the UAS, we've been very proactive with the 
BLM and DOI and other state agencies.
    On the Klondike fire last year in Oregon, the State of 
Alaska brought their incident management team down and we asked 
them to do a video on what they were doing for unmanned aerial 
surveillance for burning out, location of spot fires and 
mapping. Same thing on the Tonto fire in Arizona this year 
using UAS on Forest Service lands working together with DOI and 
OAS.
    Senator Cantwell. Can we get either you and Mr. Rupert, or 
just you, Director Legarza, to meet to discuss program 
improvements now that we know that our satellite systems can 
give us spot fire information?
    Ms. Legarza. Yup.
    Senator Cantwell. Are we using that on a daily basis for 
hasty response? I mean, it is almost minute-by-minute 
information about where a fire start is. Are we incorporating 
that satellite information into a real-time response?
    Ms. Legarza. Yeah, that's our goal. Our goal is to get a 
real-time common operating pictures. And we're working toward 
that and would be happy to meet with you and have some more 
discussions on real-time ``common operating picture'' 
technology moving forward.
    Senator Cantwell. I have met with Forest Service Chief 
Christensen, who I have a lot of respect for, on this.
    Ms. Legarza. Yeah.
    Senator Cantwell. And I get that there are a lot of new 
tools.
    Ms. Legarza. Yeah.
    Senator Cantwell. I guess what we are saying is pick the 
most urgent, readily available ones that you can implement 
today. Do not study this for an entire year because, as my 
colleague from West Virginia said, this is costing us so much 
money.
    I am happy to reintroduce my language to change the 
prescriptive burn season to an earlier date. I think this 
notion that somehow working with agencies where we could not 
get this prescribed burn window moved to more flexible times 
because the public might be upset about smoke is not right. I 
guarantee you the people of the Northwest are very upset about 
smoke, and they want us to do something. So having a smoky 
August instead of moving the prescribed burn to a March or 
April timeframe and getting more of it done, particularly those 
that are already done NEPA review.
    And I just want to say--I know my time is expired--Mr. 
Crowfoot, thank you for talking about the right way of using a 
categorical exemption. We do not need a broad, like let's 
bulldoze everything CE because we have good ones, and we think 
we can use this opportunity to use those.
    The reason I say that is because we are spending millions 
of dollars on stream restoration for salmon. So we don't want 
to see that disturbed by somebody who comes in without public 
input and says, okay, let's just take out this 4,200 acres 
right here. We want the discussion to be well-meaning, and we 
are willing to continue to work with people on more 
flexibility. We have just got to get it the right way instead 
of just, again, bulldozing our way into it.
    Let us get you the tools. Let us get you the resources. You 
have our attention, and you are going to continue to have our 
attention, because it is such a big issue and the climate of 
hotter, drier conditions is going to continue to challenge us.
    Thank you so much.
    The Chairman. Thank you, Senator Cantwell.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Madam Chairman, last June, as you do nearly every year, you 
convened a hearing on the wildfire outlook for 2018, and in the 
last 12 months the country has experienced truly catastrophic 
fires.
    In my home State of Wyoming the Roosevelt fire destroyed 55 
homes and forever changed the lives of the folks who evacuated 
just in time. Fires in California killed dozens, displaced 
thousands of families, destroyed whole communities.
    Every year in this hearing we talk about wildfire potential 
for the year ahead, and I know I am not alone when I say that I 
hope this coming year is nothing like the last.
    Madam Chairman, before today this Committee had held a 
number of energy policy hearings over the last several months 
ranging from renewable energy efficiency to opportunities to 
improve carbon capture. As we have those important discussions, 
we need to remember to include trees and forests. Healthy, 
well-managed forests are critical for wildlife habitat and for 
healthy watersheds. Unhealthy forests are more prone to insect 
and disease infestation and catastrophic wildfire.
    With proactive management and coordinated restoration, I 
believe we can begin to restore a natural fire cycle across the 
forest landscape. Forests can be carbon sources through trees 
and as trees die and decay in place or they can be carbon 
sinks, pulling carbon dioxide from the atmosphere to improve 
air quality. I think we have an opportunity to stem the 
deforestation of millions of acres across our federal forests 
that occur as a result of beetle kill in unmanaged tree stands 
and catastrophic wildfire. It is going to continue to be a team 
effort, requiring that effort, requiring coordination among 
many skilled partners like we have in terms of the witnesses 
today.
    Director Legarza, what I would like to ask is, President 
Trump issued an Executive Order in December 2018. The Order 
directed the Forest Service and the Department of the Interior 
to coordinate on a number of activities to increase treated 
acres on federal land and reduce the risk of catastrophic 
wildfire. In your testimony you reiterate the Order's 
instruction for the Forest Service to develop performance 
metrics to get a better picture of the success of those fuel 
reduction efforts. Can you talk a little bit about what those 
metrics look like?
    Ms. Legarza. Thank you, Senator, for your question.
    The actual performance metrics fire land in a different 
programmatic area than what I oversee so I'm not able to give 
you a truthful answer to that, but we'd be happy to find that 
when I get back to the agency and have somebody get that 
information to you.
    Senator Barrasso. Thank you very much.
    Ms. Legarza. You're welcome.
    Senator Barrasso. It is so interesting as you try to go 
through that that you would think we would all want to know 
what those metrics are. You would think the country would want 
to know, that the whole department would want to know. I mean, 
it is just like when you hear that this is siloed over here and 
this is siloed over here and we are trying to direct the whole 
issue. It is just concerning.
    Mr. Maisch, I want to thank you for making the trip today. 
There is no question Alaska faces unique challenges in forest 
management, especially related to coordination across 
jurisdictional boundaries. In Wyoming we face this as well. 
Alaska has one whole Forest Service region for Alaska. We are 
split into two different regions, Region 2 and Region 4.
    Given that the federal and state agency have the same 
geographic boundaries to manage within the State of Alaska, can 
you give us some advice on specific states--steps to improve 
coordinating and communicating that could maybe be applied to 
other Forest Service regions that have multiple states to have 
to work with?
    Mr. Maisch. Yeah, I can try and do that.
    Of course, we are very fortunate as Region 10 in our state 
aligned very well, perfectly, actually, maybe not always 
perfectly on some of our policy goals but certainly 
communication is a big part and up-front communication is very 
important.
    Our state, we have a state-wide forest management plan that 
spells out, kind of, the rules of operation so each of the 
parties know how to interact with each other during fire 
season.
    We have a pre-imposed fire season meeting that occurs with 
all the suppression agencies. So I'd recommend that in your 
jurisdiction for your state. If that doesn't occur, we call it 
a spring operations meeting and then a fall fire review which 
is, kind of, an after action review of the season, what worked, 
what didn't work, that gives you opportunity to adapt and 
correct things as you learn from mistakes that maybe were made 
during the season. So that's probably one of the biggest things 
is that communication piece and that pre-planning piece. Really 
form the relationships before you have an incident because when 
you have an incident, it's too late to form a relationship.
    Senator Barrasso. Mr. Crowfoot, if I could. I appreciate 
the attention your governor has paid to reducing hazardous 
fuels and with them, the risk of catastrophic wildfire.
    In your written testimony you discuss 35 critical fire 
break projects and identify recommendations for immediate 
treatment. Of these projects, I think it was a 14-mile-long 
fire break to protect a series of communities in the wildland 
urban interface in the East Bay area. Of these 35 projects, how 
many of them involve land managed by a federal agency as 
opposed to just state and local?
    Mr. Crowfoot. Well, several, and I couldn't put a number on 
it, but there are several. And there's actually been great 
progress made in avoiding silos that prevent actually getting 
the work done.
    So the Good Neighbor Authority is an important tool that we 
use in California with the Forest Service, and it lets us do 
work on the federal lands from the state agencies and vice 
versa. Over half of the funding that we're spending on 
vegetation management is actually spent on federal lands 
because what we realized is the fire doesn't respect the 
jurisdictional boundaries. So we're working closely with the 
Forest Service on those emergency projects.
    Senator Barrasso. And you are finding it good in terms of 
Region 5 and the Forest Service officials to maintain the 
compliance with federal law, even with specifics of NEPA?
    Mr. Crowfoot. Yes. State law can't, obviously, waive NEPA 
and so, what we are waiving for those emergency projects is our 
California Environmental Quality Act. And so, I should make 
sure to mention that we are not able to streamline the federal 
NEPA. But we're working closely with the Forest Service on 
these projects. A lot of projects that we're doing, obviously 
on an emergency basis, are already cleared for NEPA.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you, Madam Chair and 
the Ranking Member for this important discussion today.
    Let me bring it back to rangeland fires, similar to what 
Senator Lee was talking about.
    My understanding is that the federal wildfire funding has 
primarily focused on forest land and not rangeland fires, 
despite the fact, and I think Director Rupert, you have 
mentioned this, that the Great Basin Range has led the nation 
in acres burned for the second year in a row, totaling 2.1 
million acres burned in 2018. That is 233 percent above its 
ten-year average.
    Furthermore, nearly 75 percent of all acres burned in the 
West during the past two decades were on rangelands, not 
forest. That is hundreds of thousands of acres. That is home to 
rural ranching communities, sage grouse. They are going up in 
flames.
    I am curious, and I am going to pose this to both 
directors. Do you think we need to create a more balanced 
approach to fighting wildfires on all federal lands? And how 
will we do that? Ms. Legarza, I am going to pull you into this 
because I know you have a background in living in Elko, Nevada, 
Carson City as well, and working for both federal agencies. So 
I am curious. Let me start with you, Director.
    Ms. Legarza. Absolutely. Thank you for the question.
    I think a lot of the things that we're doing right now--
we're looking at cross boundary work on lands with the fire 
activity as meeting ahead of time and looking at----
    Senator Cortez Masto. When you say cross boundaries, do you 
mean you are working with the BLM?
    Ms. Legarza. BLM, absolutely, absolutely.
    Senator Cortez Masto. And you guys are coordinating now for 
the first time?
    Ms. Legarza. Well, no. We have been throughout my career.
    Senator Cortez Masto. Okay.
    Ms. Legarza. I can remember as a District Fire Management 
Officer we would have those pre-season meetings like Chris 
talked about and we would look at the landscape and talk about 
if we get a fire on to this area how we're going to manage it 
on the BLM's lands or the Forest Service lands or even some 
state lands. So it's definitely increased over time more than 
it was 30 years ago. So there's more of those up-front 
conversations that are happening.
    Mr. Rupert. Just to reinforce, I mean, I think that that 
collaboration is absolutely there. I mean, we have employees 
that are co-located in the same office.
    Senator Cortez Masto. Let me stop you there. I appreciate 
the collaboration. I am talking about the federal funding. Do 
we need to be redirecting more of the federal funding to 
rangeland fire since there seems to be predominantly more of 
those or is there a reason why and it may be because of the 
topography? I don't know, you tell me. Are we missing out here 
when it comes to addressing the funding that is necessary when 
it comes to rangeland fires?
    Mr. Rupert. So the big fire appropriation that comes in, 
part of that appropriation goes to Forest Service, part of that 
appropriation comes to Interior. Once it gets to Interior, we 
allocate it to the Interior land management bureaus.
    The suppression part of that appropriation, so the big pot 
of money that we use to respond to these big fires, is 
essentially agency neutral. That money, that suppression 
account essentially sits there and is used when it's needed. 
And so, when there's a fire on federal jurisdiction and we 
respond to it, we have a suppression activity in place. 
Regardless of which agency, we're drawing from, essentially, 
the same suppression account.
    And then even when we bring, when our partners are 
assisting, state, local and others, that incident, again, you 
know, I mentioned earlier, we have this incident management 
framework where we all come in and very interoperable. We're 
all----
    Senator Cortez Masto. Yes, we will get to that and I 
appreciate that. I only have so much time, so I appreciate that 
because I do want to get into that.
    I do want to talk to you further about the funding, because 
I don't think that we should all be competing. I think there 
should be enough resources for everyone when it comes to 
wildfires whether they are on forest or rangeland.
    But let me talk about the incident command because this is 
another concern of mine. I spent a number of years with our 
Cattlemen's Association in Northern Nevada. It was at Maggie 
Creek Ranch. We were talking about a number of issues. But one 
of the concerns that I am hearing from our local permittees, as 
well as our Cattlemen's Association, everyone else, is that 
there is a lack of the federal agencies talking to the 
permittees from the very beginning. There is a lack of 
coordination, so much so that some of our ranchers, our local 
fire departments, our local government resources are not being 
utilized in this discussion, particularly when it comes to an 
incident command and something that is happening. When they can 
spot a fire immediately because it is their land and they can't 
take action right away, and then when the incident command 
steps up, there is sometimes misinformation, miscoordination 
and we are not doing what we should be doing to really tackle 
the fire and work with all the state/local folks.
    So here is what I am going to ask because I am running out 
of time. I would love to have both of your commitment that you 
are willing to work with me to address this issue in the State 
of Nevada as I pull a roundtable to get discussions together 
with all of the stakeholders to see how we can do a better job 
when we set up an incident command and we are working together 
to address wildfire in the State of Nevada. Can I get a yes 
from both of you?
    Mr. Rupert. Absolutely, easiest question of the day, 
absolutely.
    Senator Cortez Masto. Great.
    Ms. Legarza. Absolutely, yes.
    Senator Cortez Masto. I know my time is up. Thank you so 
much.
    I am going to submit the rest of my questions for the 
record.
    But let me just say one final thing. For purposes of 
California, thank you for what you are doing. I know there is 
discussion right now. You are working with the National Guard 
to help you with drones and identifying wildfires. We are 
working together with California at the Tahoe Summit regularly, 
and we have the fire cameras around Tahoe to identify fires 
early on with the Forest Service.
    So there is new technology that is out there. It is being 
utilized, and I look forward to working with you in the future 
on all of that as well.
    Thank you.
    The Chairman. I actually saw those cameras when we were in 
Tahoe last year. It was really interesting to see the 
technologies that are out there.
    Senator Daines.
    Senator Daines. Thank you, Chair Murkowski.
    I want to start, first of all, with discussing the recent 
misguided efforts to close or transfer Job Corps Civilian 
Conservation Centers, or the CCCs, currently operated by the 
Forest Service. CCCs, like the Anaconda and Trapper Creek in 
Montana, are critical partners in fighting catastrophic 
wildfire. They help create high-paying jobs. They support our 
communities. They train wildland firefighters and their 
necessary support staff. In fact, some of Montana's foresters 
hire up to 50 Job Corps students to assist in these efforts, 
and the Montana CCCs provide tens of thousands of man hours 
fighting wildfires. I cannot stress enough the importance of 
the Anaconda and the Trapper Creek Centers in Montana and what 
they mean for our families and our communities supporting them, 
in places like Anaconda, Montana.
    Bill Everett, the CEO of Anaconda Deer Lodge County 
Operations there in the county, they were devastated when they 
heard the news about the proposed shutdown of Anaconda. This 
particular Job Corps was one of the top ten percent in the 
country in terms of the metrics of outcomes that are scored, 
yet it was announced it was going to be closed.
    So I picked up the phone on June 1st. It was a Saturday 
afternoon. My wife and my daughter were standing there beside 
me, and I called President Trump. I talked to him directly 
about this, and I was most pleased to see him listen to what I 
had to say and to hear him agree to keep the Anaconda Job Corps 
site open and designated as a CCC. I also received commitments 
from Secretary Acosta and Secretary Perdue, and I want to thank 
them for listening to the voices of the people of Montana.
    It was an honor to update the Anaconda community following 
that call, letting them know the great news. It was emotional. 
There were tears shed of happiness, and that is what we are 
here for at the end of the day, truly, to fight on behalf of 
our communities.
    And it ties directly to the future of ensuring that we have 
a job force ready and prepared with the skills necessary to 
deal with the 21st century challenges, particularly as it 
relates to wildfires in places like Montana.
    I also helped introduce the bipartisan Job Corps Protection 
Act to block the closure and transfer of all these Job Corps 
CCC centers in Montana and across the nation. I think it is a 
mistake. Fighting wildfires requires partnerships like we have 
with our Job Corps and we must see them continue at a time when 
the severity of our wildfires are getting greater. This is the 
wrong time to take these actions here on these CCCs. I am going 
to continue to fight until we get this done.
    Now it is time to turn to another important aspect of 
protecting our communities from catastrophic wildfire, and that 
is more active management.
    Director Legarza, I applaud your agency for today launching 
your proposed revisions to NEPA regs. Far too long the red tape 
in the NEPA process has held up important projects on the 
ground at a cost to the environment, at a cost to our 
watersheds, at a cost to wildlife habitat, at a cost to jobs. 
We need to get this environmental review done in the right way 
so that work can get done on the ground to improve forest 
health.
    Secretary Crowfoot, last year's Camp Fire and Carr Fire in 
California were truly devastating. They were heartbreaking. We 
must do everything possible to prevent similar tragedies in the 
future.
    I applaud both actions that California has taken to 
expedite forest management to reduce the risk of catastrophic 
wildfires. And as you highlight in your testimony, California 
has gone so far as to waive time-consuming environmental 
reviews to increase forest management and to protect some 200 
California communities.
    In your testimony, you touched on the importance of fuel 
breaks, talking about how vegetation along Skyway Road in 
Paradise kept flames off the road, saving lives, allowing 
people to flee and escape safely.
    Furthermore, we know that nearly 95 percent, let me say 
that again, 95 percent of human-caused fires start within one 
half mile of roads. That is a very compelling stat.
    My question is this. In addition to providing robust 
funding for hazardous fuels reduction, what else can Congress 
do to rapidly accelerate management and reduce immediate and 
long-term wildfire risk on national forests, especially these 
fuel breaks along roads?
    Mr. Crowfoot. Well, first of all, I would underscore and 
agree with the priority that we need to provide to these fuel 
breaks on each side of these evacuation corridors and 
specifically transportation corridors. My recommendation would 
be to encourage the federal agencies to use an existing 
categorical exemption, as I understand it, that actually allows 
for fuels management along transportation corridors.
    I'm not an expert on the technical ins and outs of that, 
but as I understand it, we have tools that we are working with 
the U.S. Forest Service on right now to actually clear 
transportation corridors in California.
    Senator Daines. Yes, would you be open to looking at 
providing some additional authorities for fuel breaks, post-
fire restoration?
    Mr. Crowfoot. As far as we're concerned, this is an all-of-
the-above approach and we need to consider any ideas that get 
proposed. So we certainly look forward to talking to your 
office more about that.
    Senator Daines. Great, thank you.
    And you mentioned the work that California is doing with 
the Forest Service through the Good Neighbor Authority and the 
Shared Stewardship Initiative.
    Could you discuss briefly, and I am out of time here, so 
you will have to----
    Mr. Crowfoot. Yeah.
    Senator Daines. You have been brief. I have not.
    But can you discuss your coordination with federal agencies 
and why cross boundary management across large landscapes is so 
critical?
    Mr. Crowfoot. Yeah, well, I think my colleagues testifying 
talked about the importance of coordination during the 
firefight, and I think that's really strong.
    I think what we're working to strengthen is the 
coordination and innovation among our jurisdictions to prevent 
or to manage forests to prevent fires.
    I'm very excited that the U.S. Forest Service is, has 
essentially reached out to each state to modernize its 
agreement, its working relationship with each state through, 
essentially, like a master stewardship agreement.
    We, in California, are working in real time with our Region 
5 U.S. Forest Service to really talk about what else we should 
be doing together. And I'm glad to report that there is shared 
commitment, certainly in California on behalf of our Governor, 
but I would imagine other states with the U.S. Forest Service.
    Senator Daines. And what we are seeing, last statement, 
Chair Murkowski, is this, is that you know, California was the 
latest example of what happens when we don't manage our 
forests, when these catastrophic wildfires strike. We saw this 
in Montana two years ago, 1.4 million acres.
    And it comes down to this fundamental truth. Either we are 
going to manage our forests or our forests are going to manage 
us. I applaud the efforts going on right now in California to 
try to get back on top of this challenge we face here in more 
effectively managing our forests because there are tremendous 
environmental benefits by more effectively managing our 
forests.
    Mr. Crowfoot. We agree.
    Senator Daines. Thank you.
    The Chairman. Thank you, Senator. Well said. I think that 
we have learned this time and time again, but it does seem that 
there is a changed environment right now.
    We have several votes that have just started, but I have 
deferred to my colleagues because I thought it was important 
that they have an opportunity to raise the issues that are very 
local to their states.
    Ms. Legarza, I want to ask about the memo that went out 
last month to all regional supervisors announcing the reduction 
in hazardous fuel targets. In that memo, you basically say that 
there has been a slippage due to the lapse in appropriations 
combined with the fire borrowing we saw during 2018. We all 
know fire borrowing has been this perpetual problem and are 
pleased that we are going to get that, ultimately, behind us.
    I guess the question to you is, where are we now then? We 
are on the other side of the shutdown. We are, hopefully, on 
the good side of trying to get ourselves on track with regards 
to the fire borrowing. But I guess I need to know for purposes 
of this year whether or not you feel like you are getting on 
track, on target with the hazard fuel targets that you have 
set. Are we going to meet them for FY 2019 based on this 
particular memo that you just sent out?
    Ms. Legarza. Well, thank you, Madam Chairman.
    So as far as hazardous fuels, what we saw this past fiscal 
year in the fall and into the wintertime for work on the 
landscape was we had wetter than normal conditions in part of 
Florida and the southeast and even in parts of central of 
America. So we got a little behind not having the prescription, 
remember I always go back to the prescription if we're doing a 
prescribed fire. You have to have certain weather for the 
prescribed fire.
    Mother Nature was good for us for not having wildfires on 
Christmas, but at that same time we were a little behind to get 
some of that burning done in the southeast.
    Overall, right now, I'm feeling pretty confident on 
hazardous fuel targets for mechanical treatment and prescribed 
fire. The timber targets is outside my program of work, so we 
can get back to you on that state of timber.
    The Chairman. Okay.
    And then on the fire fix and recognizing that that does not 
go into place until the FY20 approps cycle. Last year you had 
to borrow, the Forest Service had to borrow $720 million from 
non-fire accounts to pay for the suppression costs. It was 
mentioned, I think it was Senator Gardner that brought this up. 
It might have been Senator Wyden. But with the disaster 
supplemental that we signed into law, the Forest Service has 
been reimbursed for those transfers. But I understand that 
Forest Service has notified Congress that you intend to 
temporarily retain these funds as a contingency in case 
suppression costs exceed your budget this year, rather than 
repay the non-fire program account.
    There are a lot of management issues that are going on 
here, but there is a lot of concern from folks about well, wait 
a minute, we just give you, kind of, the checkbook and that 
makes folks a little bit nervous because the funds are not 
unlimited here.
    What can you speak to in terms of actions that the Forest 
Service is taking to ensure that these dollars are going to be 
spent out wisely? Do you have a cost containment strategy that 
you can share with us? And just how are you going to be 
approaching that for this year before the fire fix fully kicks 
in?
    Ms. Legarza. Yeah, you bet.
    So thank you to Congress to getting the disaster aid 
package passed.
    The Chairman. It was important.
    Ms. Legarza. Absolutely.
    Of that $720 million, there was $60 million of that was for 
the repurposing of an air tanker for aviation modernization and 
strategy, information technology. And so, those projects that 
we can implement in the field in that area, we're sending the 
money out there so they can work on the different air tanker 
bases in Colorado Springs, we have one in Missoula, one in 
Ready, California, the cameras in Tahoe Basin. So where we know 
that we can send that money back out to the field to implement 
it, we are doing it.
    In talking to my budget shop, the prediction for what we 
could spend on wildland fire this year could mean there might 
be a potential to transfer. So guidance from the budget 
directed area is to hold on to some of that, that we can't 
initially institute into the field. And I know there could be 
different K-V monies and different things that is outside of my 
program of work that they're doing.
    But our budget area is really diving in to look into what 
we can send out, we will send out and implement. That that we 
can't, we won't.
    The Chairman. Well, you raised the issue of the air tankers 
and we all know that the aerial firefighting really eats up a 
big chunk of the suppression costs. In fact, well, this is 
relatively old, a 2009 report from GAO suggests that aviation 
activities claim up to one third of all federal firefighting 
expenditures. That is probably even higher today. So I think we 
all want to make sure that, again, these monies are being spent 
wisely. My understanding is that timing is really everything 
when it comes to effectiveness in aircraft being used in 
different firefighting scenarios.
    Can you give me the assurance, again here, that we are not 
just putting aircraft up in the air because we have the 
aircraft, but we are doing so in a manner that is really being 
efficient and effective on these fires?
    Ms. Legarza. Oh, absolutely.
    The Chairman. I don't think anyone has really raised the 
issue of the aviation and the aerial firefighting issues, but 
it is a significant part of what goes on with the effort.
    Ms. Legarza. Oh, absolutely.
    So some of the priorities we had when I got this position 
was fiscal integrity and no open checkbook and look at the cost 
recovery, full cost recovery, look at our different agreements, 
where can we become more efficient and knowing that we have 
certain aviation that goes on our exclusive-use and then 
critically working through those call-when-needed, when we need 
them, working to the different geographical areas and down to 
the local districts on the drawdown levels. When we bring them 
on, we bring off of surge capacity. When we don't need them, we 
release them. So really been ramping that up the last couple 
years, trying to.
    The Chairman. I have a few more questions that I want to 
ask before we have to run off to the vote. But let me turn 
quickly to Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    Ms. Legarza and, I guess, Mr. Rupert both, talk a little 
bit about use of UAS technology. We have one of the test sites 
in Grand Forks, North Dakota, and tremendous partnership. They 
have done a lot, for example, on flooding in the river valley 
where we have used unmanned aircraft and clearly have the 
ability to bring that expertise to the firefighting effort as 
well. So talk about where you are using unmanned aerial 
systems, where we can expand on that and maybe how we can 
develop some partnerships with our test site?
    Ms. Legarza. Absolutely. I'll go first then turn it to my 
friend here, Jeff.
    So I can remember just five or six years ago when I was in 
California it was if you fly, we can't on the drone activities. 
And since those five years, it's gone off the chart on how we 
can use technologies on wildland fires.
    Senator Hoeven. Right.
    Ms. Legarza. They slashed on the Klondike fire in Oregon I 
talked about earlier for doing back-burning operations for 
surveillance, for mapping, also on the Tonto fires in Arizona, 
already this year for doing some back-burning and mapping and 
continuing to have that, not just for wildland fire, but for 
different uses across the Federal Government and the Forest 
Service.
    We have a great partnership with DOI and BLM and knowing 
that we need to continue to advance that technology and for 
firefighter safety and less exposure for our pilots and our 
firefighters.
    We lost a firefighter early this year that was from 
California doing prescribed burning in Texas on a low and slow 
doing ping pong burning operations because when you're low and 
slow and something goes bad there's not a lot of time to 
recover.
    So we're working really hard, Alaska and Florida, at DOI, 
to see how we can enhance technology to reduce exposure for 
firefighters and pilots moving into the future.
    Mr. Rupert. Yeah, so just building off that, maybe I'll 
talk just a little bit about, you know, the progress that we 
have made.
    So 2017 I think we had something like 700 flights, UAS 
flights, over fire. Last year, that was up over 15,050 plus 
flights, 200 fires. So we're seeing pretty dramatic increased 
use of UAS.
    I mean, I've shared with, you know, different folks, you 
know, from my perspective, I feel like last year we really 
actually implemented UAS in fires. I think it's there to stay.
    I think, you know, undoubtedly, we'll continue to see more 
use and more reliance on, you know, those technologies and 
those capacities. I think now that we're here we're going to 
have to start to get strategic in terms of okay, how do we 
start to factor that in, to how we think about, you know, or 
financing incidents in the use of the capacities where we use 
contracts. We have contracts in place right now for UAS. It's a 
huge help on incidents. We're training pilots in federal 
agencies. The states are doing the same thing.
    I think as it is now becoming really, sort of, a part of 
how we're doing fire management, you know, we're just going to 
have to build that into, sort of, strategically all of the 
coordination we do together and how we're going to balance that 
use and ultimately pay for it.
    Senator Hoeven. Do you have points of contact at DOI and 
Forest Service, BLM and so forth that we could get from you to 
work with you on that?
    Ms. Legarza. Absolutely, yes.
    Senator Hoeven. Okay.
    Ms. Legarza. We have a person dedicated solely for that in 
the Forest Service.
    Senator Hoeven. Okay, so I will have my staff reach out to 
you both and get those points of contact.
    Thank you.
    The other question for Ms. Legarza, and we've talked about 
it before, but for any controlled burns done on the grasslands, 
it is very important that you talk to our ranchers, coordinate 
with the ranchers and work with the Grazing Associations. And 
you will commit to do that?
    Ms. Legarza. Oh, absolutely, yes.
    Senator Hoeven. Good.
    Then in the Farm bill we included a Good Neighbor Authority 
for tribes and counties that--it is essentially a pilot program 
to let them do fuel management and so forth. Can you tell me 
what the status is on implementing that pilot program?
    Ms. Legarza. Yeah, so what I know about the Good Neighbor 
Authority, Senator, is we have about 200 of those Good Neighbor 
Authority agreements completed across the nation in 37 
different states. And very excited about the new authorities 
with not only the states, but tribes, yeah, that's right.
    Senator Hoeven. Tribes, yes, that is the new development 
that we included in the Farm bill was the tribes' piece.
    Ms. Legarza. Absolutely.
    Senator Hoeven. I know they are anxious to work with you on 
it.
    Ms. Legarza. Yeah, yes. And if there's anything more you 
need, let me know and we can get that.
    Senator Hoeven. No, I am glad to hear you like the program, 
you are committed to working with it and now it will include 
tribes too.
    Ms. Legarza. Yeah.
    Senator Hoeven. So, thank you.
    Yes, sir?
    Mr. Maisch. Yeah, if I could add just a little bit to that.
    Through NASF we have a Tribal Relations Committee so we, 
the Intertribal Timber Council, you may be familiar with. We've 
been talking with them about this authority and sharing master 
agreement templates and specific information that are lessons 
learned, the states have learned in implementing those 
authorities. So we actually have some dialogue going peer-to-
peer with that organization and the state foresters.
    Senator Hoeven. Good.
    Yes, I appreciate that, thank you. And that is exactly what 
we intended, so thank you.
    The Chairman. Thank you, Senator.
    I am going to end the hearing. I made a big fuss yesterday 
about people being on time for votes and I do not want to be 
the one that is shamed this morning. I thank each of you.
    I want to just ask Chris, do you know if the $2 million for 
the spruce bark beetle funding has been transferred to the 
state yet? Are we getting going with that?
    Mr. Maisch. Yeah, it is. And we've actually got some 
projects that have already been underway up in one of the state 
parks where we've been following hazard trees as part of a fuel 
reduction and safety issue.
    The Chairman. Right.
    Mr. Maisch. And other projects will be hitting the ground 
shortly, so.
    The Chairman. Good. I would love to have further discussion 
with you while you are here. I know that we will get an update 
from you. I thank you for making the trip out.
    And for you, Mr. Crowfoot, I am very interested to hear how 
aggressive California is in these efforts. We appreciate it.
    I met just yesterday with some folks from PG&E that 
recognize that part of the big challenge out there in 
California was the challenges that they face in vegetation 
management around utility lines. Nobody wants to lose their 
trees, but nobody wants to lose their life either when we have 
these horrendous fires coming through.
    This is about management, and management sometimes means 
making some decisions that people would rather not, but it is 
health safety.
    Things are changing out there, and we have to work to 
address this at all different levels. I appreciate the levels 
that you all bring to us.
    We have a lot of work to do here on these issues around the 
country. We look at these maps and we know that next year 
Alaska could be red. West Virginia could be red, for that 
matter.
    So know that we look forward to working with you, and we 
thank you for this annual update.
    With that, the Committee is adjourned.
    [Whereupon, at 11:48 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
